Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




     MEDICARE PART B AND
 BENEFICIARIES PAID FOR XOLAIR
THAT JURISDICTION 14 PHYSICIANS
      DISCARDED WITHOUT
       DOCUMENTATION


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                      David Lamir
                                                     Acting Regional
                                                    Inspector General

                                                        June 2013
                                                      A-01-12-00518
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                       EXECUTIVE SUMMARY 


Medicare Part Band its beneficiaries paid an estimated $69,000 for Xolair that Jurisdiction 14
physicians discarded without documentation in 2010. The physician practices in our sample
that billed for undocumented discard were unaware ofthe requirement to document discard in
the medical record.

WHY WE DID THIS REVIEW

When a physician must discard the remainder of a single-use drug vial after administering the
prescribed dose to a patient, Medicare Part B will pay for the discarded and the administered
drug, up to the amount indicated on the vial's label. Since September 23, 2010, NHIC, Corp.
(NHIC), the Medicare administrative contractor (MAC) for Jurisdiction 14, has required
physicians to document in the medical record the date, time, and amount of the drug discarded.
Xolair is a relatively expensive asthma drug, which is susceptible to discard because of its
packaging. Xolair is sold in 150 milligram single-use vials, but two of the four standard dosages
are not multiples of 150 milligrams. When beneficiaries receive those dosages, a physician is
likely to discard 75 milligrams of Xolair; Medicare Part B and the beneficiaries are responsible
for the payment for both the discarded drug and the administered drug.

The objectives of this review were to (1) determine whether Jurisdiction 14 physicians
documented in the medical record the discarded Xolair that they billed for in calendar year (CY)
2010 and (2) estimate Medicare Part Band beneficiary payments for undocumented discarded
Xolair.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) administers the Medicare program and
contracts with MACs to process and pay Medicare Part A and Part B claims. NHIC is the MAC
for Jurisdiction 14 (Maine, Massachusetts, New Hampshire, Rhode Island, and Vermont).

CMS allows MACs to require physicians to use the "JW" modifier to identify line items billing
for discarded drug. For example, if a physician gives a patient 95 milligrams of a drug from a
single-use vial labeled to contain 100 milligrams and discards the remaining 5 milligrams, the
physician should bill the 95 milligram dose on one claim line and bill the discarded 5 milligrams
on another line with the JW modifier. If the JW modifier is not required, then the total amount
of the drug administered and discarded would be billed on one claim line. Use of the JW
modifier allows MACs to monitor drug waste and identify potential issues in billing and
reimbursement.

NHIC does not require use of modifier JW. However, NHIC requires physicians to document
discarded drugs in the medical record.




Medicare Part Band Beneficiaries Paid for Xolair That Jurisdiction 14 Physicians
Discarded Without Documentation (A-01-12-00518)
WHAT WE FOUND 


For the 30 line items in our sample that included billings for discarded Xolair, physicians did not
document the discarded drug. Using our sample results, we estimated that in CY 2010 Medicare
and beneficiaries paid $69,000 for Xolair that Jurisdiction 14 physicians discarded but did not
document in the medical record. Representatives from all of the physician practices in our
sample that billed for undocumented discarded Xolair stated that they were unaware of NHIC's
2010 policy prior to the start of our review in mid-2012.

WHAT WE RECOMMEND

VVerecommendthatNHIC:

    • 	 provide additional education to ensure that physicians are aware of the policy to 

        document discarded drugs, 


    • 	 require the use of the JVV modifier for discarded drugs to aid in monitoring of drug waste
        and identification of potential issues in billing and reimbursement, and

    • 	 monitor the use of the JVV modifier and address any instances of potential noncompliance
        with discarded drug requirements.

NHIC COMMENTS

In written comments on our draft report, NHIC concurred with our first recommendation but did
not concur with the second and third recommendations.




Medicare Part Band Beneficiaries Paid for Xolair That Jurisdiction 14 Physicians
Discarded Without Documentation (A -01-12-00518)                                                ll
                                                       TABLE OF CONTENTS 




INTRODUCTION.......................................... ..... .... .. ......................................... ............................ 1 


           Why We Did This Review ......................... ........................................................................ 1 


           Objectives.................... .................................... ................ ......... ............................... ............ 1 


           Background ..................................................................... .......................................... ......... 1 

                 The Medicare Program ............................................ ...... ........................... ............... 1 

                 Medicare Part B Coverage for Drugs and Biologicals ... ..... ......................... ............ 1 

                 Billing for Discarded Drugs ... .... ...... ..... ............................................................ .. .... .2 

                 Xolair ..... ...... ............. .... ................. ... ...... .... .... ......................................... ....... ......... 2 


           How We Conducted This Review ............................................ ......................................... 3 


FINDINGS ................................................................................ ......... .......... ........... ........................ 3 


           Discarded Xolair Not Documented in Medical Record ..................................................3 


           Medicare and Beneficiaries Paid $69,000 for Discarded Xolair ................. ..... .. .... .... ... .4 


           Conclusion .................................................................................... ............. ......... .... ....... ..... 4 


RECOMMENDATIONS ..... ........... .......................... .... .... ............................ ...... .... ..... ... ........ .... ...4 


NHIC COMMENTS ............ .................. ...... .... ..................... ................................................. ........ 5 


APPENDIXES 


           A: Audit Scope and Methodology............................................ ..... .................. ............... ..6 


           B: Sample Design and Methodology ............................................................ ................... 8 


           C: Sample Results and Estimates .. ............. ........... ..... .....................................................9 


           D: NHIC Comments .......... ........................ .... ...................................................... ........... ! 0 





Medicare Part Band Beneficiaries Paid for Xolair That Jurisdiction 14 Physicians
Discarded Without Documentation (A-01-12-00518)                                                                                                       iii
                                               INTRODUCTION 


WHY WE DID THIS REVIEW 


When a physician must discard the remainder of a single-use drug vial after administering the
prescribed dose to a patient, Medicare Part B will pay for the discarded and the administered
drug, up to the amount indicated on the vial's label. Since September 23, 2010, NHIC, Corp.
(NHIC), the Medicare administrative contractor (MAC) for Jurisdiction 14, has required
physicians to document in the medical record the date, time, and amount of discarded drugs.
Xolair is a relatively expensive 1 asthma drug, which is susceptible to discard because of its
packaging. Xolair is sold in 150 milligram single-use vials, but two of the four standard dosages
are not multiples of 150 milligrams. When beneficiaries receive those dosages , physicians likely
discard 75 milligrams of Xolair at each administration; Medicare Part B and the beneficiaries are
responsible for the payment for both the discarded drug and the administered drug.

OBJECTIVES

Our objectives were to (1) determine whether Jurisdiction 14 physicians documented in the
medical record the discarded Xolair that they billed for in CY 2010 and (2) estimate Medicare
Part Band beneficiary payments for undocumented discarded Xolair.

BACKGROUND

The Medicare Program

Medicare provides health insurance coverage to people aged 65 and over, people with
disabilities, and people with end-stage renal disease. The Centers for Medicare & Medicaid
Services (CMS) administers the program. CMS contracts with MACs to process and pay
Medicare Part A and Part B claims. NHIC is the MAC for Jurisdiction 14 (Maine,
Massachusetts, New Hampshire, Rhode Island, and Vermont).

Medicare Part B Coverage for Drugs and Biologicals

Medicare Part B provides limited coverage for drugs and biologicals 2 that are furnished incident
to a physician's services and that are not usually self-administered. 3 Medicare Part Buses the
average sales price (ASP) methodology to reimburse for most covered drugs. Under this



1
 In calendar year (CY) 2010, Medicare Part Band a beneficiary paid approximately $1,188 for a 300 milligram
dose of Xolair. Nationwide, Part Band its beneficiaries paid approximately $55.4 million for Xolair for CY 2010.
2
 Biologicals are medications made from living organisms or their products. For purposes of this report, the term
"drug" means drug or biological.
3
    The Medicare Benefits Policy Manual, Pub. No. 100-02, ch. 15, §50.


Medicare Part Band Beneficiaries Paid for Xolair That Jurisdiction 14 Physicians
Discarded Without Documentation (A-01-12 -00518)                                                                   1
methodology, the Medicare allowance is 106 percent of the ASP. 4 Part B reimburses physicians
80 percent of the allowance and beneficiaries are responsible for the remaining 20 percent.

Billing for Discarded Drugs

For drugs in single-use vials, Medicare reimburses for both the administered drug and discarded
drug up to the amount indicated on the vial's label. 5 Physicians bill Medicare by creating a line
item on a claim that specifies the drug and the amount of the drug billed. Providers may use
modifier codes to supply additional information for a specific claim line item. CMS allows
MACs to require physicians to use the "JW" modifier to identify line items billing for discarded
drug. For example, if a physician gives a patient 95 milligrams of a drug from a single-use vial
labeled to contain 100 milligrams and discards the remaining 5 milligrams, the physician should
bill the 95 milligram dose on one claim line with no JW modifier and should bill the discarded 5
milligrams on another line with the JW modifier. However, if the JW modifier is not required
(and not used voluntarily), the total amount of drug administered and discarded should be billed
on one claim line. 6

CMS instructed each MAC to notify Medicare providers of their local requirements concerning
the use of the JW modifier. On September 23, 2010, NHIC issued a policy stating that NHIC
does not require use of the JW modifier. This policy also requires physicians to document drug
wastage in the medical record with date, time, and amount of drug discarded. 7

Xolair

Xolair (omalizumab) is a drug approved by the Food and Drug Administration (FDA) to treat
individuals 12 years and older for allergy-induced asthma. It is manufactured by Genentech and
supplied in 150 milligram single-use vials. FDA approved two presentations for Xolair, a 75
milligram single-use vial and a 150 milligram single-use vial, but Genentech has never marketed
the 75 milligram vial in the United States.

Xolair is administered by injection in one of four standard dosages every 2 or 4 weeks with the
dosage and frequency based on the patient's body weight and the results of a blood test
performed at the start of treatment. The standard dosages are 150 or 300 milligrams every 4
weeks or 225 or 375 milligrams every 2 weeks. Because Xolair is available only in a 150

4
 The Social Security Act§ 1847A(c) defines ASP as the value of a manufacturer's quarterly sales of a drug to
purchasers in the United States (with certain exceptions), net of any price concessions, divided by the total number
of units of the drug sold by the manufacturer in that quarter. CMS reviews and updates the ASP on a quarterly
basis.

5
    Medicare does not reimburse physicians for discard from multiuse vials.

6
 The Medicare Claims Processing Manual, Pub. No. 100-04, ch. 17, § 40, covers CMS's policies on payment for
discard and the JW modifier.

7
 Clarification on Use of Modifier JW and Billing Drug Wastage Based on (CMS) Change Request 6711, issued
September 23, 2010, by NHIC, and available at
http://www .medicarenhic.corn/providers/articles/MDJWB illingDrugW astageBasedCR6711 .pdf.

Medicare Part Band Beneficiaries Paid for Xolair That Jurisdiction 14 Physicians
Discarded Without Documentation (A-01-12-00518)                                                                   2
milligram vial, physicians are likely to discard 75 milligrams of the drug when administering
doses of 225 or 375 milligrams.

HOW WE CONDUCTED TIDS REVIEW

We used CMS's National Claims History file to identify Medicare Part B line items processed
and paid by NHIC for Xolair furnished during CY 2010. We identified 806line items for more
than 150 milligrams of Xolair, which represented $831,97 6 in Medicare payments to physicians
and $209,987 in beneficiary deductibles and copayments. We reviewed the medical and
payment records for a random sample of 100 line items. When examining the medical records,
we checked to see whether physicians had documented the discarded drug. To identify the
undocumented discarded drug, we compared the amount of Xolair billed on each line item to the
administered dose in the medical record and asked the physician whether Xolair had been
discarded. We determined how much Medicare and beneficiaries paid for the undocumented
discard in our sample and used our sample results to estimate how much Medicare and
beneficiaries paid in total for undocumented discarded Xolair furnished in CY 2010.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our scope and methodology, Appendix B contains the details
of our sample design and methodology, and Appendix C contains the details of our sample
results and estimates.

                                                FINDINGS

For the 30 line items in our sample that included billings for discarded Xolair, physicians did not
document the discarded drug. Using our sample results, we estimated that in CY 2010 Medicare
and beneficiaries paid $69,000 for Xolair that Jurisdiction 14 physicians discarded but did not
document in the medical record. Representatives from all of the physician practices in our
sample that billed for undocumented discarded Xolair stated that they were unaware of NHIC's
2010 policy prior to the start of our review in mid-2012.

DISCARDED XOLAIR NOT DOCUMENTED IN MEDICAL RECORD

Thirty line items in our random sample of 100 included billing for discarded Xolair, and for
those items physicians did not document the discarded drug in the medical record. Of the 20
physician practices in our sample, representatives of 13 practices (including the 8 practices that
billed for undocumented discarded Xolair) stated that they had been unaware of NHIC's 2010
policy until receiving our audit notification letter in 2012. Representatives of four practices




Medicare Part Band Beneficiaries Paid for Xolair That Jurisdiction 14 Physicians
Discarded Without Documentation (A -01-12-00518)                                                 3
stated that they were aware of NHIC's policy, 8 and representatives of three practices indicated
that because their practices do not bill for discarded drugs, they would likely have considered the
policy inapplicable.

MEDICARE AND BENEFICIARIES PAID $69,000 FOR DISCARDED XOLAIR

Using our sample results, we estimated that Medicare paid $55,181 and beneficiaries paid
$14,016 for Xolair discarded in CY 2010. Medicare and beneficiaries made these payments
because the packaging of the drug does not accommodate all standard dosages and because
Medicare allows charges for the discarded drug. In each of the 30 instances in our sample in
which discarded Xolair was paid, physicians administered 225 or 375 milligram doses and
discarded 75 milligrams.

In addition, for 16line items in our sample, physicians discarded 75 milligrams of Xolair but did
not bill for it because they (1) were not aware that billing for the discarded drug was allowable,
(2) had a policy not to bill for discarded drugs, or (3) inadvertently neglected to bill for the
discarded drug . As a result, in total, 46 of the 100 line items in our sample represented
treatments in which physicians discarded 75 milligrams of Xolair. 9 However, physicians billed
Medicare for the discarded Xolair only about two-thirds of the time (30 line items out of 46).

CONCLUSION

Most of the physician practices that we contacted in 2012 were unaware of NHIC's 2010 policy
requiring documentation of discarded drugs. Payments for undocumented discarded Xolair may
continue if physicians remain unaware of the policy and if NHIC does not monitor compliance
with the policy. Requiring physicians to use the JW modifier would allow NHIC to monitor
drug waste and identify potential issues in billing and reimbursement, such as billing for
undocumented discard.

                                          RECOMMENDATIONS

We recommend that NHIC:

    • 	 provide additional education to ensure that physicians are aware of the policy to 

        document discarded drugs, 


    • 	 require the use of the JW modifier for discarded drugs to aid in monitoring of drug waste
        and identification of potential issues in billing and reimbursement, and



8
 None of the practices that said they were aware of the policy had billed discarded Xolair that appeared in our
sample.

9
 The remaining 54 line items represented treatments in which physicians administered doses of 300 milligrams with
no discard.

Medicare Part Band Beneficiaries Paid for Xolair That Jurisdiction 14 Physicians
Discarded Without Documentation (A-01-12-00518)                                                                   4
    • 	 monitor the use of the JW modifier and address any instances of potential noncompliance
        with discarded drug requirements.

                                           NHIC COMMENTS

In written comments on our draft report, NHIC concurred with our first recommendation but did 

not concur with the second and third recommendations. 


NHIC's comments are included in their entirety as Appendix D. 





Medicare Part Band Beneficiaries Paid for Xolair That Jurisdiction 14 Physicians
Discarded Without Documentation (A-01-12-00518)                                             5
                     APPENDIX A: AUDIT SCOPE AND METHODOLOGY 


SCOPE 


Our audit covered 806 line items for more than 150 milligrams of Xolair 10 furnished during CY
2010, which represented $831,976 in Medicare payments to physicians and $209,987 in
beneficiary deductibles and copayments. In this audit, we did not review entire claims; rather,
we reviewed specific line items within claims.

We limited our review of NHIC's internal controls to those applicable to the 806line items of
service because our objectives did not require an understanding or assessment of NHIC's
complete internal control structure. Our review allowed us to establish reasonable assurance of
the authenticity and accuracy of the data obtained from the National Claims History file, but we
did not assess the completeness of the file.

Our fieldwork consisted of contacting the physicians who billed for the items we sampled. We
also contacted NHIC and FDA officials. We conducted our fieldwork from May 2012 through
August 2012.

METHODOLOGY

To accomplish our objectives, we:

     • 	 reviewed applicable Medicare laws, regulations, and guidance;

     • 	 interviewed NHIC staff members;

     • 	 reviewed NHIC educational materials;

     • 	 interviewed FDA officials for background information;

     • 	 used CMS's National Claims History file to identify Part B line items where payments
         were made for Healthcare Common Procedure Coding System code 12357 (Xolair)
         furnished during CY 201 0;

     • 	 identified 806line items with unit counts representing more than 150 milligrams of
         Xolair;

     • 	 selected a simple random sample of 100 Xolair line items paid by NHIC (Appendix B);




10
  We did not include line items for 150 milligrams because it was unlikely that a standard dose of 150 milligrams
would result in discard. The only other line items we excluded were a small number of lines for 5 milligrams
because those line items were likely to have been billed incorrectly.

Medicare Part Band Beneficiaries Paid for Xolair That Jurisdiction 14 Physicians
Discarded Without Documentation (A-01-12-00518)                                                                 6
    • 	 reviewed available claims history from the Common Working File for the sampled items
        to determine whether the claims had been canceled and superseded by revised claims;

    • 	 obtained medical and payment records for the sampled items from the 20 physician
        practices which had provided the Xolair;

    • 	 reviewed the medical and payment records;

    • 	 determined whether physicians had documented discard in the medical record;

    • 	 identified undocumented discard by comparing each amount billed to the administered
        dose in the medical record and by asking the physicians whether Xolair had been
        discarded;

    • 	 used our sample results to estimate the amount that Medicare and beneficiaries paid for
        the undocumented discarded Xolair (Appendix C); and

    • 	 held an exit conference with NHIC to discuss the results of our review.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Part Band Beneficiaries Paid for Xolair That Jurisdiction 14 Physicians
Discarded Without Documentation (A -01 -12-00518)                                                 7
                     APPENDIX B: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of nationwide paid Medicare Part B physician services (claim line
items) for the drug Xolair with dates of service in CY 2010.

SAMPLING FRAME

The sampling frame was an Access database table of 806 Xolair line items processed by NHIC
having more than 30 units of service (equivalent to more than 150 milligrams).ll Those 806line
items totaled $831,976 in Medicare payments to physicians and $209,987 in beneficiary
deductibles and copays.

SAMPLE UNIT

The sample unit was a line item of service.

SAMPLE DESIGN

Our sample design was a simple random sample.

SAMPLE SIZE

We selected a sample of 100 line items.

SOURCE OF RANDOM NUMBERS

We used the Office of Inspector General, Office of Audit Services (OAS) statistical software to
generate the random numbers.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in the sampling frame. After generating the 100
random numbers, we selected the corresponding frame items for review.

ESTIMATION METHODOLOGY

We used the OAS statistical software to estimate the dollar value of payments for undocumented
discarded Xolair.

11
   We did not include line items for 150 milligrams because it was unlikely that a standard dose of 150 milligrams
would result in discard. The only other line items we excluded were a small number of lines for 5 milligrams
because those line items were likely to have been billed incorrectly.



Medicare Part Band Beneficiaries Paid for Xolair That Jurisdiction 14 Physicians
Discarded Without Documentation (A-01-12-00518)                                                                 8
                    APPENDIX C: SAMPLE RESULTS AND ESTIMATES 


                     Medicare Payment for Undocumented Discarded Xolair 

                                       Sample Results 


Frame       Value of             Sample Value of                  Items with       Total Amount of
Size        Frame                Size   Sample                    Undocumented     Undocumented
                                                                  Discard          Discard
806         $ 831,976            100         $ 100,612            30               $ 6,846


             Estimates of Medicare Payment for Undocumented Discarded Xolair

                       (Limits Calculated for a 90-Percent Confidence Interval)
                                   Point Estimate        $ 55,181
                                   Lower Limit           $ 41,997
                                   Upper Limit           $ 68,366

                    Beneficiary Payment for Undocumented Discarded Xolair 

                                        Sample Results 


Frame       Value of             Sample Value of                  Items with       Total Amount of
Size        Frame                Size   Sample                    Undocumented     Undocumented
                                                                  Discard          Discard
806         $ 209,987            100         $ 25,345             30               $ 1,739


            Estimates of Beneficiary Payment for Undocumented Discarded Xolair

                       (Limits Calculated for a 90-Percent Confidence Interval)
                                   Point Estimate         $ 14,016
                                   Lower Limit            $ 10,657
                                   UpperLimit             $17,374




Medicare Part Band Beneficiaries Paid for Xolair That Jurisdiction 14 Physicians
Discarded Without Documentation (A -01-12 -00518)                                                    9
                                                  APPENDIX D: NHIC COMMENTS 




      CMS
     CF'-'TfR~   J.OR M.IOICARE & MFOJCAIO   ~ERVICF~
                                                                                    Phone: (781) 741-3255




May 24,2013

Mr. David Lamir
Acting Regional Inspector for Audit Services
Office of Audit Services, Region 1
JFK Federal Building
15 New Sudbury St, Room 2425
Boston, MA 02203

RE: A-01-12-00508 (Medicare Part Band Beneficiaries Paidfor Xolair That Jurisdiction
14 Physicians Discarded Without Documentation)

Mr. Larnir:

As the MAC for Jurisdiction 14, NHIC is submitting our response to the OIG's report cited
above . Our response to each specific recommendations appears on the next page. We appreciate
the efforts of the OIG in identifying areas of potential vulnerability in the program, and will
continue to support such efforts in any way that we can .

Sincerely,

Is/ Robert Harrington

Robert Harrington 

Program Director, NHIC Jl4, Corp. 


cc: Anne Bockhoff-Dalton (NHIC Vice President)




Medicare Part Band Beneficiaries Paid for Xo lair That Jurisdiction 14 Physicians
Discarded Without Documentation (A-01 -12-00518)                                                    10
Recommendation 1: Provide additional education to ensure that physicians are aware of the
policy to document discarded drugs

Response: NHIC concurs with this recommendation, and we will republish our original
instructions, with a summary of this audit's results or Xolair, and further emphasize the
requirements by CMS to "document wastage", while noting that wastage is a still an allowable
expense. This may increase reimbursement for those providers who are unaware of the
allowability of wastage.

Recommendation 2: Require the use of the JW modifier for discarded drugs to aid in
monitoring ofdrug waste and identification ofpotential issues in billing and reimbursement

Response: NHIC does not concur with this recommendation. Though we currently permit this
modifier to be used (and anecdotal claims history shows that some have), a requirement would
imply penalties or sanctions for non-compliance. Since payment of the unavoidable wastage is
allowed by CMS policy- whether on a single line (for the entire vial), or split into two claim
lines to show the "actual" and "wastage" amounts - to require all providers to document wastage
at the claim level would be nearly unenforceable, since:
        a. 	 Wastage is not known from other claims-level information, and the presence of a full
             vial dose (or a whole multiple of a vial) is not sufficient to assume that an additional
             JW claim line must occur and therefore must be investigated, and
        b. 	 Obtaining accurate wastage information would require identifying and suspending
             each claims containing a "suspected" wastage amount (e.g., a full-vial dose or a
             whole multiple of a vial), and then requesting information from each provider about
             whether any drug wastage had actually occurred, and how much. Since there would
             be no change in the net payment of the claim, the effort associated with this
             recommendation may not be cost effective.

We do understand that undocumented wastage could be construed as a program payment risk (it
should be denied if undocumented- even though this still represents a cost to the physician
practice), but feel that our ability to effectively enforce this may be limited.

Recommendation 3: Monitor the use of the JW modifier and address any instances ofpotential
noncompliance with discarded drug requirements

Response: While we acknowledge the audit's intent to increase compliance with CMS
expectations regarding physician practice documentation of Xolair drug wastage, NHIC does not
concur with this recommendation, mostly for reasons expressed in our response to the second
recommendation. Monitoring on a prepayment basis would introduce claims processing delays
and likely denials for non-responsiveness (with the costs of processing a corrected claim, plus
possible appeals or inquiries to Customer Service, etc.), while providing no net savings to the
program nor the beneficiaries involved if the documentation was confirmed. Likewise,
monitoring on a postpayment basis for this potential error may not be encompassed within our
overall medical review strategy.



Medicare Part Band Beneficiaries Paid for Xolair That Jurisdiction 14 Physicians
Discarded Without Documentation (A-01-12-00518)                                                  11
